FOR IMMEDIATE RELEASE                                                CONTACT: Fred Alverson
WEDNESDAY, SEPTEMBER 21, 2011                                                  614-469-5715

http://www.usdoj.gov/usao/ohs


TEXAS WOMAN ADMITS STEALING DECEASED MOTHER’S SOCIAL SECURITY
                          BENEFITS

DAYTON – Hazel Malone, 56, of Houston, Texas pleaded guilty in U.S. District Court to
stealing $93,954 in Social Security benefits after her mother, who lived in Dayton, passed away.

Carter M. Stewart, United States Attorney for the Southern District of Ohio, and Elias Papoulias,
Resident Agent in Charge, U.S. Social Security Administration Office of the Inspector General,
announced the plea entered yesterday before U.S. District Judge Thomas M. Rose.

According to court documents, Malone’s mother, Ruth A. Scott of Dayton, was receiving Social
Security benefits prior to her death on March 31, 2002. The benefits had been deposited directly
into a bank account jointly held by Scott and Malone.

Malone did not notify the Social Security Administration of Scott’s passing and continued to
receive benefits until September 2008.

Theft of benefits is punishable by up to ten years imprisonment, three years of supervised
release, a fine of $250,000, and restitution. Judge Rose will set a date for sentencing.

Stewart commended the Social Security Inspectors General who conducted the investigation
along with Special Assistant U.S. Attorney Segev Phillips, who is prosecuting the case.

                                               ###
